No. ________________

In the Supreme Court of the United States

STANLEY P. BATES, PETITIONER,
V.

UNITED STATES OF AMERICA, RESPONDENT
PETITION FOR WRIT OF CERTIORARI
TO THE
UNITED STATES COURT OF APPEALS FOR THE FIFTH CIRCUIT
MOTION FOR LEAVE TO PROCEED
IN FORMA PAUPERIS

Petitioner Stanley P. Bates, by and through his undersigned attorney, and
pursuant to Rule 39.1, Supreme Court Rules, and Title 18, United States Code,
§ 3006A(d)(7), respectfully moves this Honorable Court for leave to proceed in
forma pauperis, and for leave to file the attached Petition for Writ of Certiorari
to the United States Court of Appeals for the Fifth Circuit without prepayment
of fees. Petitioner was represented by appointed counsel under the Criminal
Justice Act of 1964, as amended, in the district court and the court of appeals.
Leave to proceed in forma pauperis was never sought in any other court.

Respectfully submitted.

s/ Kristin L. Davidson
KRISTIN L. DAVIDSON
Assistant Federal Public Defender
Western District of Texas
727 E. César E. Chávez Blvd., B-207
San Antonio, Texas 78206-1205
(210) 472-6700
(210) 472-4454 (Fax)
Counsel of Record for Petitioner

DATED: July 31, 2020

